No. A-
Sn the Supreme Court of the Anited States

Marcus Lee Robinson,
Petitioner,
v.
Colorado,

Respondent.

Certificate of Service

I, Stuart Banner, counsel for applicant Marcus Lee Robinson, and a member
of the Bar of this Court, certify that on this 5th day of February, 2020, I caused a copy
of this Application for an Extension of Time to File a Petition for a Writ of Certiorari
in the above-captioned case to be served by First Class Mail and electronic means
upon the following, and that all parties required to be served have been served.

Doyle Baker

Senior Deputy District Attorney
Office of the District Attorney
Fourth Judicial District

105 E. Vermijo Ave., Suite 500
Colorado Springs, CO 80903

Stuart Banner
